Review of Medicaid Drug Rebate Program State of Ohio, Ohio Department of Job and Family Services, Columbus, Ohio
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Program State of Ohio, Ohio Department of Job and Family Services, Columbus, Ohio," (A-05-03-00042)
September 22, 2003
Complete
Text of Report is available in PDF format
(193 KB). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
OIG evaluated whether the Ohio Department of Job and Family Services (Agency) had established adequate accountability
and internal controls over the State's Medicaid drug rebate Program.  We determined that the Agency could improve
its policies regarding the collection of drug rebate interest for unpaid, late, and disputed drug rebates, and the use
of a hearing mechanism to resolve drug rebate disputes with the manufacturers. We recommended that the Agency develop formal
policies, procedures, and controls to follow-up and collect interest for unpaid, late, or disputed drug rebate payments,
and monitor disputed rebate amounts, including appropriate use of the hearing mechanism prescribed in the rebate agreement
between CMS and the manufacturers.  The Agency believes it is in compliance.  We continue to believe our recommended
action is necessary.